    Department of Health and Human Services
`                OFFICE OF
            INSPECTOR GENERAL




     END STAGE RENAL DISEASE
    DRUGS: FACILITY ACQUISITION
    COSTS AND FUTURE MEDICARE
        PAYMENT CONCERNS




                        Daniel R. Levinson
                         Inspector General

                         September 2010
                         OEI-03-09-00280
I N ET XR EO CD      UU TC IT VI E
                                  O N S U M M A R Y



                      OBJECTIVES
                      1. To compare Medicare payment amounts for selected separately
                         billable end stage renal disease (ESRD) drugs to average acquisition
                         costs for these drugs at dialysis facilities in the first quarter of 2009.

                      2. To examine how facility acquisition costs for selected separately
                         billable ESRD drugs have changed over the past several years.

                      3. To determine whether the method the Centers for Medicare &
                         Medicaid Services (CMS) plans to use to update payments for
                         separately billable ESRD drugs after 2011 is an accurate predictor
                         of changes in facility acquisition costs.


                      BACKGROUND
                      Beneficiaries typically receive treatment for ESRD, such as dialysis,
                      from a facility that is approved to furnish specific ESRD services. In
                      2008, 94 percent of dialysis facilities were independent and 6 percent
                      were hospital based. Medicare currently pays both types of facilities
                      based on a prospective payment system, known as the composite rate.
                      Facilities receive a fixed composite rate payment for each dialysis
                      treatment they provide. Drugs not covered under the composite rate,
                      such as epoetin alfa and darbepoetin alfa, must be billed separately and
                      are referred to as separately billable drugs. Medicare pays for most
                      separately billable drugs furnished by independent and hospital-based
                      dialysis facilities at 106 percent of their average sales prices (ASP). In
                      2008, Medicare paid $2.1 billion for separately billable ESRD drugs.
                      On January 1, 2011, Federal law will require CMS to begin
                      implementation of a new system that combines composite rate
                      payments with payments for items and services that are currently
                      separately billable (including separately billable drugs) to create a
                      single bundled payment. Federal law will require that once the bundled
                      rate takes effect, it be updated annually to reflect the changes over time
                      in the prices of goods and services used to provide ESRD care. CMS has
                      decided to base these price updates on wage and price proxy data from
                      the Bureau of Labor Statistics. For the ESRD drugs portion of the new
                      bundled rate, CMS plans to use the Producer Price Index (PPI) for
                      Prescription Drugs to estimate price changes.

                      We sent requests for information to the three largest independent
                      dialysis companies, a random sample of independent facilities not


    OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   i
E X E C U T I V E                      S U         M M A R Y


                    owned by the three largest dialysis companies, and all hospital-based
                    dialysis facilities. These surveys included a request for first-quarter
                    2009 data on the total amount paid; discounts and rebates received; and
                    total units purchased for 11 high-expenditure separately billable ESRD
                    drugs. In total, we received acquisition cost information for more than
                    three-quarters of all dialysis facilities.

                    We calculated the volume-weighted average acquisition cost per drug
                    and compared it to each drug’s first-quarter 2009 Medicare payment
                    amount. We also performed this comparison in the aggregate (i.e., for
                    the entire group of drugs as a whole). To examine how facility
                    acquisition costs for selected separately billable ESRD drugs have
                    changed over the past several years, we compared average acquisition
                    costs for the first quarter of 2009 to average acquisition costs in 2003,
                    2005, and the third quarter of 2006, as determined in previous Office of
                    Inspector General (OIG) reports. To determine whether the PPI for
                    Prescription Drugs has been an accurate predictor of changes in
                    acquisition costs for certain separately billable ESRD drugs, we
                    compared the changes in acquisition costs for separately billable drugs
                    in independent facilities to changes in the PPI for Prescription Drugs
                    from 2003 to the first quarter of 2009 (changes for darbepoetin alfa were
                    measured from 2005, as the drug did not yet have a Medicare billing
                    code in 2003).


                    FINDINGS
                    In the aggregate, drug acquisition costs at independent dialysis
                    facilities were 10 percent below Medicare payment amounts.
                    In the first quarter of 2009, aggregate acquisition costs for ESRD drugs
                    among responding independent dialysis facilities averaged 10 percent
                    below Medicare payment amounts. For these facilities, average
                    acquisition costs for all 11 of the drugs under review were between
                    2 percent and 27 percent below Medicare payment amounts. The
                    average acquisition cost for epoetin alfa (a product that accounted for
                    nearly 70 percent of Medicare drug expenditures in independent
                    facilities in 2008) was 9 percent less than the Medicare payment
                    amount. Overall, responding independent chain dialysis facilities paid
                    less for drugs under review than nonchain facilities.
                    In the aggregate, drug acquisition costs at hospital-based dialysis
                    facilities were 7 percent below Medicare payment amounts. In the
                    first quarter of 2009, aggregate acquisition costs for ESRD drugs among

  OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   ii
E X E C U T I V E                      S U         M M A R Y


                    responding hospital-based dialysis facilities averaged 7 percent below
                    Medicare payment amounts. For these facilities, average acquisition
                    costs for 5 of the 11 ESRD drugs under review were between 4 percent
                    and 33 percent below Medicare payment amounts. Average acquisition
                    costs for epoetin alfa and darbepoetin alfa (two products that accounted
                    for 73 percent of Medicare drug spending in hospital-based facilities in
                    2008) were 4 percent and 15 percent below the Medicare payment
                    amounts, respectively. For 6 of the 11 drugs, average acquisition costs
                    among responding hospital-based facilities ranged from 0.4 percent to
                    12 percent above the Medicare payment amounts (for 3 of these drugs,
                    the difference was 1 percent or less). These six drugs accounted for
                    23 percent of total Medicare payments to hospital-based facilities in
                    2008.
                    Over the past several years, average acquisition costs for 7 of the
                    11 drugs under review have decreased among responding
                    independent dialysis facilities. Seven of the eleven separately billable
                    ESRD drugs under review have seen a decrease in their average
                    acquisition costs for responding independent dialysis facilities over the
                    last several years. In contrast, only four drugs became more expensive
                    for independent dialysis facilities during this time period. These four
                    drugs accounted for only 3 percent of total Medicare payments to
                    independent facilities for separately billable ESRD drugs in 2008.
                    During a period when acquisition costs for many ESRD drugs
                    decreased, the index CMS plans to use as the basis for future
                    payment changes increased by 39 percent. Once the new payment
                    methodology takes effect in 2011, CMS plans to use the PPI for
                    Prescription Drugs as the basis for annual adjustments to the
                    prescription drug portion of the bundled rate. According to PPI data,
                    prices for prescription drugs were 39 percent higher in the first quarter of
                    2009 than in 2003. However, facility acquisition costs for the drugs that
                    account for the majority of Medicare expenditures in independent dialysis
                    facilities actually decreased during this same period.

                    For example, the average acquisition cost among responding independent
                    dialysis facilities for 1,000 units of epoetin alfa fell from $8.82 in 2003 to
                    $8.37 in the first quarter of 2009 (a decrease of 5 percent). If the PPI for
                    Prescription Drugs had been an accurate predictor for changes in the
                    acquisition cost of epoetin alfa since 2003, dialysis facilities would have
                    paid $12.22 for 1,000 units of the drug in the first quarter of 2009. This
                    amount would be 46 percent higher than epoetin alfa’s average


  OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   iii
E X E C U T I V E                      S U         M M A R Y


                    acquisition cost among responding independent dialysis facilities (and
                    33 percent higher than the ASP-based payment amount). Had the
                    Medicare payment amount for epoetin alfa since 2003 been based on
                    changes in the PPI for Prescription Drugs, total program payments to all
                    independent dialysis facilities for the drug in the first quarter of 2009
                    alone would have been $113 million higher than actual payments under
                    the current ASP-based system.


                    RECOMMENDATION
                    CMS currently pays all dialysis facilities at 106 percent of ASPs for
                    most separately billable ESRD drugs. Under the current system, we
                    found that aggregate acquisition costs for ESRD drugs at both
                    independent and hospital-based dialysis facilities were below Medicare
                    payment amounts. In addition, when we compared acquisition costs
                    among responding independent dialysis facilities to costs from prior OIG
                    reports, we found that 7 out of the 11 separately billable ESRD drugs
                    under review have actually seen a decrease in their average acquisition
                    costs over the last several years. The cost of epoetin alfa, a drug
                    responsible for more than $1.4 billion in annual Medicare spending in
                    dialysis facilities, fell by 5 percent. During this same period, the PPI for
                    Prescription Drugs increased by 39 percent.

                    If the new bundled system is implemented as planned and acquisition
                    costs for the majority of separately billable ESRD drugs decrease (as
                    they have in the past) while price indexes rise, the existing gap between
                    Medicare payment amounts and dialysis facility acquisition costs will
                    continue to grow each year. As a result, payments under the new
                    bundled system would not accurately reflect facility acquisition costs,
                    potentially costing the program additional hundreds of millions of
                    dollars per year. Therefore, we recommend that CMS:
                    Develop a more accurate method for estimating changes in the
                    prices of ESRD drugs.


                    AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                    RESPONSE
                    CMS did not concur with our recommendation. In its response to the
                    draft report, CMS stated that the downward trajectory of average
                    acquisition costs documented in OIG’s analysis was influenced largely
                    by changes in CMS’s payment mechanism for separately billable ESRD
                    drugs, particularly for epoetin alfa. CMS states that, as a result, OIG’s

  OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   iv
E X E C U T I V E                      S U         M M A R Y


                    figures are not suitable for inferring future price trends as the market
                    for epoetin alfa becomes more competitive. CMS’s view is that it is more
                    appropriate to look at recent quarterly price changes—changes that
                    CMS states have not been distorted by changes in payment policy—that
                    show an increase in the cost of epoetin alfa since the end of 2008. CMS
                    expects that future ESRD drug price growth will more closely reflect
                    market-based price drivers, such as those measured by the PPI for
                    Prescription Drugs.

                    OIG fully appreciates the difficulty that CMS faces in implementing the
                    new bundled rate payment system, especially in terms of estimating
                    future costs for all items and services related to ESRD care. OIG also
                    realizes that the historical average acquisition cost data presented in
                    this report may not necessarily be predictive of future trends in the
                    costs of separately billable drugs. Nevertheless, based on our findings,
                    we remain concerned that Medicare could end up paying too much for
                    these drugs once the bundled rate is implemented, potentially costing
                    the program and its beneficiaries hundreds of millions of dollars a year.
                    Therefore, OIG intends to work with CMS to carefully monitor the cost
                    of epoetin alfa and other ESRD drugs in the future.




  OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   v
   T A B L E            O F             C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
            In the aggregate, drug acquisition costs at independent dialysis
            facilities were 10 percent below Medicare payment amounts . . . . . . . . 14

            In the aggregate, drug acquisition costs at hospital-based dialysis
            facilities were 7 percent below Medicare payment amounts . . . . . . . . . 16

            Over the past several years, average acquisition costs for 7 of the
            11 drugs under review have decreased among responding
            independent dialysis facilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

            During a period when acquisition costs for many ESRD drugs
            decreased, the index CMS plans to use as the basis for future
            payment changes increased by 39 percent . . . . . . . . . . . . . . . . . . . . . . . 18



         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

            Agency Comments and Office of Inspector General Response . . . . . . . . 21



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
            A: Medicare Expenditures in 2008 for Drugs Under Review. . . . . . . . . 23

            B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
      I N T R O D U C T I O N


                      OBJECTIVES
                      1. To compare Medicare payment amounts for selected separately
                         billable end stage renal disease (ESRD) drugs to average acquisition
                         costs for these drugs at dialysis facilities in the first quarter of 2009.

                      2. To examine how facility acquisition costs for selected separately
                         billable ESRD drugs have changed over the past several years.

                      3. To determine whether the method the Centers for Medicare &
                         Medicaid Services (CMS) plans to use to update payments for
                         separately billable ESRD drugs after 2011 is an accurate predictor
                         of changes in facility acquisition costs.


                      BACKGROUND
                      Medicare pays dialysis facilities for most items and services based on a
                      prospective payment system, known as the composite rate. However,
                      many ESRD drugs and biologicals used in treating dialysis patients
                      must be billed separately and are therefore referred to as separately
                      billable drugs. 1 Medicare currently bases payment for most separately
                      billable ESRD drugs on 106 percent of their average sales prices (ASP).
                      Prior Office of Inspector General (OIG) reports have found that
                      Medicare payment amounts for the majority of the high-expenditure
                      separately billable ESRD drugs reviewed were consistently higher than
                      average acquisition costs reported by dialysis facilities. 2
                      On January 1, 2011, Federal law will require CMS to begin
                      implementation of a new system that combines composite rate
                      payments with payments for items and services that are currently
                      separately billable (including separately billable drugs) to create a
                      single bundled payment. 3 On August 12, 2010, CMS published a notice
                      of final rulemaking that sets forth the payment methodology under the
                      new bundled rate system. 4 According to the preamble to the final rule,
                      once the new system takes effect in 2011, bundled payments in future


                         1 Hereinafter, the term “drugs” refers to both drugs and biologicals.
                         2 OIG, Medicare Reimbursement for End Stage Renal Disease Drugs:Third Quarter
                      2006 (OEI-03-06-00590), June 2007; Medicare Reimbursement for New End Stage Renal
                      Disease Drugs (OEI-03-06-00200), March 2006; Medicare Reimbursement for Existing End-
                      Stage Renal Disease Drugs (OEI-03-04-00120), May 2004.
                         3 Social Security Act (the Act), § 1881(b)(14).
                         4 75 Fed. Reg. 49030 (Aug. 12, 2010).




    OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   1
I N T R O D         U C T           I O N


                     years (i.e., 2012 and later) will be annually updated based on an
                     inflationary index developed by CMS. This index will use data
                     published by the Bureau of Labor Statistics (BLS), including the
                     Producer Price Index (PPI) for Prescription Drugs, to estimate yearly
                     changes in the prices of ESRD-related goods and services. 5
                     In a letter to OIG, Representative Pete Stark expressed concerns that
                     the bundled payment system in 2011 may not accurately reflect facility
                     acquisition costs and requested that OIG update its analysis of the
                     acquisition costs paid by dialysis facilities for separately billable ESRD
                     drugs. Specifically, OIG was requested to (1) compare recent
                     acquisition costs in dialysis facilities to the Medicare payment amounts
                     and (2) compare recent acquisition costs in dialysis facilities to
                     acquisition costs from prior years as published in earlier OIG reports.
                     Treatment of End Stage Renal Disease
                     ESRD is a condition in which the kidneys are no longer able to function
                     at a level necessary for day-to-day life. The loss of kidney function in
                     ESRD patients is usually permanent. Treatment options include kidney
                     transplantation and dialysis. In 2007, Medicare covered approximately
                     400,000 beneficiaries with ESRD. 6 One of the most common
                     complications of ESRD is anemia, a deficiency in red blood cells.
                     Erythropoietin-stimulating agents, such as epoetin alfa (trade name
                     Epogen) and darbepoetin alfa (trade name Aranesp), treat anemia by
                     increasing the number of red blood cells.

                     Beneficiaries receive treatment for ESRD, such as dialysis, from a
                     facility that is approved to furnish specific ESRD services. Facilities
                     may be either independent or hospital based. Both types of dialysis
                     facilities provide outpatient services to ESRD patients as well as home
                     maintenance dialysis, which is dialysis performed by appropriately
                     trained patients at their own homes. Independent dialysis facilities are
                     freestanding and the majority are owned or managed by a chain
                     (87 percent of independent dialysis facilities are chain facilities
                     according to CMS’s Dialysis Facility Compare database).
                     Hospital-based dialysis facilities must be financially and



                        5 75 Fed. Reg. 49030, 49154–49161 (Aug. 12, 2010).
                        6 Payment, Safety and Quality Issues in Treatment of Patients with ESRD. Testimony of
                     Leslie V. Norwalk, Esq., Acting Administrator, CMS, June 26, 2007. Accessed at
                     http://waysandmeans.house.gov/media/pdf/110/norwalk.pdf on July 9, 2009.



  OEI-03-09-00280    E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   2
I N T R O D        U C T             I O N

                   administratively integrated within a hospital. 7 As of December 2008,
                   independent dialysis facilities accounted for 94 percent of all facilities
                   and hospital-based dialysis facilities represented only 6 percent. 8
                   Medicare Payments to Dialysis Facilities
                   CMS currently pays dialysis facilities based on a prospective payment
                   system, known as the composite rate. Facilities receive a fixed
                   composite rate payment for each dialysis treatment they provide. The
                   composite rate is composed of a labor and nonlabor portion, with an
                   add-on adjustment for area wage index. The composite rate includes
                   most items and services related to dialysis services, such as labor costs;
                   related supplies; routine tests; and certain drugs, such as
                   antihistamines, glucose, and insulin. Since January 1, 2009,
                   hospital-based facilities receive the same rate as independent dialysis
                   facilities. 9 Drugs not covered under the composite rate, such as epoetin
                   alfa and darbepoetin alfa, must be billed separately and are referred to
                   as separately billable drugs. 10
                   Medicare Payments for Separately Billable ESRD Drugs
                   In general, Medicare coverage of separately billable drugs in dialysis
                   facilities is limited to products that cannot be self administered,
                   i.e., drugs that are administered by a physician or other health care
                   professional. Exceptions include epoetin alfa and darbepoetin alfa,
                   which are covered even if self-administered by the patient. 11
                   According to CMS’s National Claims History File, Medicare paid
                   $2.1 billion for separately billable drugs furnished by dialysis facilities
                   in 2008 ($2 billion in independent dialysis facilities and $116 million in
                   hospital-based dialysis facilities). 12 Epoetin alfa and darbepoetin alfa
                   accounted for 72 percent of Medicare payments for separately billable
                   ESRD drugs in independent dialysis facilities and 73 percent of
                   payments in hospital-based dialysis facilities.


                      7 42 CFR §§ 413.174(c)(4) and 413.174(c)(5).
                      8 Dialysis Facility Compare database. Accessed at http://www.medicare.gov on
                   December 10, 2008.
                    9 CMS, Medicare Benefit Policy Manual, ch. 11, § 30.5; CMS, Medicare Claims Processing
                   Manual, ch. 8, § 10.1.
                     10 CMS, Medicare Benefit Policy Manual, ch. 11, § 30.4.2; CMS, Medicare Claims
                   Processing Manual, ch. 8, § 60.2.1.1.
                      11 CMS, Medicare Benefit Policy Manual, ch. 11, §§ 30.4 and 90.
                      12 As of December 2009, the National Claims History File for 2008 was 95-percent
                   complete.



 OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   3
I N T R O D         U C T           I O N


                     Independent dialysis facilities. Prior to January 1, 2005, CMS paid
                     independent dialysis facilities for separately billable drugs based on the
                     lower of the billed amount or 95 percent of their average wholesale
                     prices. The exception was epoetin alfa, which was paid for based on a
                     statutory payment allowance of $10 per 1,000 units. 13
                     Beginning January 1, 2005, in accordance with the Medicare
                     Prescription Drug, Improvement, and Modernization Act of 2003
                     (MMA), P.L. 108-173, CMS based payment to independent dialysis
                     facilities for the 10 highest expenditure separately billable drugs on
                     acquisition costs determined by OIG. 14 With certain exceptions,
                     including specific vaccines, CMS paid all other drugs administered in
                     independent dialysis facilities in 2005 at 106 percent of their ASPs. 15
                     As of January 1, 2006, with certain exceptions, CMS began to pay for all
                     separately billable drugs furnished by independent dialysis facilities at
                     106 percent of their ASPs. 16 This is the same method used to pay for
                     other drugs under Medicare Part B. In announcing this change, CMS
                     stated that it was inappropriate to use the older acquisition data
                     provided by OIG (updated for inflation) as a basis for payment and
                     questioned the feasibility of continually acquiring acquisition cost data
                     over the long term. 17
                     Hospital-based dialysis facilities. Prior to January 1, 2006, CMS paid
                     hospital-based dialysis facilities for separately billable drugs based on
                     reasonable cost. 18 The exception to this rule was epoetin alfa, which
                     was paid in the same manner as in independent facilities, i.e., based on
                     a statutory payment allowance of $10 per 1,000 units prior to
                     January 1, 2005, and based on the OIG-reported average acquisition
                     cost in 2005. 19 Since January 1, 2006, all separately billable drugs


                        13 The Act, §§ 1881(b)(11)(B)(ii)(I) and 1881(b)(11)(B)(ii)(II). CMS,                                  Medicare Claims
                     Processing Manual, ch. 8, §§ 60.2.2 and 60.4.3.
                       14 MMA, § 623(d)(1). The Act, § 1881(b)(13)(A)(ii). As required by the MMA, OIG
                     reviewed 2003 acquisition costs for 10 high-dollar ESRD drugs in the study entitled
                     Medicare Reimbursement for Existing End-Stage Renal Disease Drugs (OEI-03-04-00120),
                     May 2004. See the discussion of related OIG work on p. 7 for additional information.
                        1542 CFR §§ 414.904(d)(2) and 414.904(e).
                        16 CMS, Medicare Claims Processing Manual, ch. 8, § 60.2.2; 42 CFR
                     §§ 414.904(d)(2)(iii) and 414.904(e).
                        17 70 Fed. Reg. 70116, 70222–70223 (Nov. 21, 2005).
                        18 CMS, Medicare Claims Processing Manual, ch. 8, § 60.2.2.
                        19 The Act, §§ 1881(b)(11)(B)(ii)(I) and 1881(b)(11)(B)(ii)(II). CMS,                                  Medicare Claims
                     Processing Manual, ch. 8, § 60.4.3.



  OEI-03-09-00280    E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   4
I N T R O D         U C T           I O N


                     (with certain exceptions) furnished by hospital-based dialysis facilities
                     have been paid at 106 of their ASPs. 20 This change produced a
                     consistent drug payment methodology among independent dialysis
                     facilities and hospital-based dialysis facilities.
                     Changes to the ESRD Payment Methodology Under the Medicare
                     Improvements for Patients and Providers Act of 2008
                     Effective January 1, 2011, section 1881(b)(14) of the Act, as added by
                     section 153(b) of the Medicare Improvements for Patients and Providers
                     Act of 2008 (MIPPA), P.L. 110-275, will require Medicare payment for
                     all items and services used in the treatment of ESRD, including drugs
                     that are currently separately billable, to be included in a single bundled
                     rate. The new bundled rate is to be implemented over a multiyear
                     phase-in period, with full implementation beginning January 1, 2014. 21
                     However, prior to January 1, 2011, ESRD facilities may make a
                     one-time election to be excluded from the phase-in and accept payment
                     entirely under the ESRD bundled rate. 22
                     This new bundled rate will include a payment adjustment based on
                     patient characteristics, unusual variations in the type or amount of
                     medical care needed, and additional costs incurred at low-volume
                     facilities. 23 On August 12, 2010, CMS published a final rule that would
                     implement the bundled rate for outpatient ESRD facilities. 24
                     Base rate in 2011. According to the final rule, CMS will calculate a base
                     rate per treatment (base rate) by adding the projected 2011 composite
                     rate payment to the projected 2011 average payment for separately
                     billable services (including separately billable drugs). 25 In accordance
                     with Federal law, the estimated total payments under the bundled base
                     rate must equal 98 percent of the estimated total amount of payments




                        20 CMS,      Medicare Claims Processing Manual, ch. 8, § 60.2.2. 42 CFR
                     §§ 414.904(d)(2)(iii) and 414.904(e).
                        21 During the phase-in, ESRD facilities will be paid based on a blend of the ESRD
                     bundled rate and composite rate payment/separately billable systems.
                        22 The Act, § 1881(b)(14)(E)(ii).
                        23 The Act, § 1881(b)(14)(D). Payment adjustments may also include additional items
                     that the Secretary of Health & Human Services determines appropriate, such as an
                     adjustment for facilities located in rural areas.
                        24 75 Fed. Reg. 49030 (Aug. 12, 2010).
                        25 75 Fed. Reg. 49030, 49200 (Aug. 12, 2010).




  OEI-03-09-00280    E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   5
I N T R O D         U C T           I O N


                     that would have been made for 2011 if the bundled rate had not been
                     implemented. 26
                     Separately billable drugs component of the base rate in 2011. In the
                     preamble to its final rule, CMS states that total payments for the top
                     11 separately billable ESRD drugs accounted for 99.8 percent of total
                     spending for all separately billable drugs in 2007. 27, 28 Because total
                     payments under the new system must initially equal 98 percent of the
                     estimated total payments that would have been made if the bundled
                     system were not implemented, CMS must determine what total
                     payments for separately billable drugs would likely be in 2011 under
                     the current system. In doing this, CMS updated the second-quarter
                     2010 ASP-based payment amounts for separately billable drugs to
                     2011 levels using the PPI for Prescription Drugs. 29, 30
                     Annual payment increases after 2011. Once the base rate for ESRD
                     bundled payments is established, it will be annually updated to reflect
                     changes over time in the prices of goods and services used to provide
                     ESRD care. Federal law requires CMS to develop an all-inclusive ESRD
                     bundled rate (ESRDB) input price index that will reflect annual price
                     increases of the various categories that make up the ESRDB market
                     basket. 31, 32 CMS plans to use wage and price proxies published by BLS
                     to measure the annual rate of price change in each category (e.g., wages
                     and salaries, pharmaceuticals, capital costs). 33 Beginning in 2012,
                     ESRD bundled payment amounts must be annually updated by the
                     increase in the ESRDB price index minus a productivity adjustment. 34



                        26 The Act, § 1881(b)(14)(A)(ii).
                        27 75 Fed. Reg. 49030, 49076 (Aug. 12, 2010).
                        28 Ten of these drugs were included in this report. The drugs selected for this report
                     were chosen prior to CMS’s publishing its final rule for the new ESRD payment system.
                        29 75 Fed. Reg. 49030, 49079 (Aug. 12, 2010).
                        30 According to CMS, the term “PPI for Prescription Drugs,” as used in its final rule,
                     refers specifically to BLS’s price index for Pharmaceuticals for Human Use (Prescription).
                     See 75 Fed. Reg. 49030, 49160 (Aug 12, 2010).
                       31 The Act, § 1881(b)(14)(F)(i), as amended by section 3401(h) of the Patient Protection
                     and Affordable Care Act (PPACA), P.L. 111-148. We conducted this study prior to the
                     passage of the PPACA. The changes contained in the PPACA had no effect on our analysis.
                       32 In this context, the term “ESRD market basket” refers to the mix of goods and services
                     used to produce ESRD care.
                        33 75 Fed. Reg. 49030, 49158–49160 (Aug. 12, 2010).
                        34 The Act, §§ 1881(b)(14)(F)(i)(I) and 1881(b)(14)(F)(i)(II), as amended by section 3401(h)
                     of the PPACA. The productivity adjustment is described in the Act, § 1886(b)(3)(B)(xi)(II).



  OEI-03-09-00280    E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   6
I N T R O D         U C T           I O N


                     According to the preamble to CMS’s final rule, the pharmaceutical
                     category of the ESRDB will account for approximately 25 percent of the
                     entire ESRDB market basket, with epoetin alfa expenditures making up
                     almost 70 percent of the pharmaceutical category. 35 CMS intends to use
                     the PPI for Prescription Drugs as its price proxy for the pharmaceutical
                     category. 36 According to CMS, the PPI for Prescription Drugs reflects
                     price changes associated with the average mix of all prescription drugs
                     sold in pharmacies. CMS states that it anticipates “… the price changes
                     associated with the assortment of drugs administered in ESRD facilities
                     should, over time, be similar to the average prescription drug price
                     changes observed across the entire economy.” 37
                     Related Work by the Office of Inspector General
                     An OIG report completed in May 2004 and a followup report completed
                     in March 2006 compared the average acquisition costs reported by
                     independent dialysis facilities to the Medicare payment amounts for
                     selected ESRD drugs. 38 The May 2004 report found that large
                     independent dialysis facilities could acquire 10 high-expenditure drugs
                     at costs that averaged 22 percent below the Medicare payment amount;
                     smaller independent facilities could acquire these drugs for an average
                     of 14 percent less. Both large and small facilities could obtain epoetin
                     alfa for an average of 12 percent and 5 percent below the Medicare
                     payment amount, respectively. The March 2006 report focused on only
                     darbepoetin alfa, which did not yet have its own Medicare billing code
                     during the period covered by the May 2004 report. Independent dialysis
                     facilities could acquire darbepoetin alfa for less (sometimes
                     substantially less) than the Medicare payment amount.
                     A June 2007 OIG report provided updated information on payment
                     differences for 11 high-dollar separately billable ESRD drugs (the
                     10 drugs included in the May 2004 report and the 1 drug from the
                     March 2006 report). 39 In the June 2007 report, we found that
                     independent dialysis facilities could acquire 9 of the 11 ESRD drugs


                        35 75 Fed. Reg. 49030, 49156–49158 (Aug. 12, 2010).
                        36 Ibid, 49160 (Aug. 12, 2010).
                        37 Ibid.
                        38 OIG,     Medicare Reimbursement for Existing End-Stage Renal Disease Drugs
                     (OEI-03-04-00120), May 2004; Medicare Reimbursement for New End Stage Renal Disease
                     Drugs (OEI-03-06-00200), March 2006.
                       39 OIG, Medicare Reimbursement for End Stage Renal Disease Drugs: Third Quarter
                     2006 (OEI-03-06-00590), June 2007.



  OEI-03-09-00280    E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   7
I N T R O D         U C T           I O N


                     under review for costs averaging from 7 percent to 32 percent less than
                     the Medicare payment amounts. For the two remaining drugs, average
                     acquisition costs among independent facilities were 3 percent and
                     9 percent above the Medicare payment amounts. Hospital-based
                     dialysis facilities could acquire 6 of the 11 drugs under review at prices
                     averaging from 4 percent to 29 percent less than the Medicare payment
                     amounts. For the five remaining drugs, average acquisition costs
                     among hospital-based facilities ranged from 1 percent to 8 percent above
                     the Medicare payment amounts.


                     METHODOLOGY
                     Scope
                     This study focused on the 11 drugs that had been included in OIG’s
                     3 most recent studies of ESRD drug pricing. Since 2003, these 11 drugs
                     have consistently accounted for nearly all of Medicare’s spending on
                     separately billable ESRD drugs in dialysis facilities.
                     Drugs Under Review
                     We compiled a list of the 11 drugs included in the 3 OIG ESRD drug
                     pricing studies issued since 2003. Using data from CMS’s National
                     Claims History File, we then determined Medicare expenditures in 2007
                     for each of these 11 drugs, as well as for all separately billable ESRD
                     drugs furnished by dialysis facilities. 40 As Table 1 shows, all of the
                     selected drugs were among the 15 drugs (excluding vaccines) with the
                     highest total payments in independent and hospital-based dialysis
                     facilities (and all but 3 were among the top 10 in both settings). In
                     independent and hospital-based dialysis facilities, the 11 selected drugs
                     accounted for 99 percent and 97 percent of total Medicare payments for
                     separately billable drugs in 2007, respectively.




                       40 At the time we selected our sample, outpatient data for 2008 were not 100 percent
                     complete. See Appendix A for Medicare payments in 2008 for the drugs under review.



  OEI-03-09-00280    E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   8
I N T R O D               U C T             I O N


 Table 1: Payment in 2007 for Drugs Under Review

                                               Payment                   Total Payment                           Payment                        Total Payment
                                              Ranking in                in Independent                        Ranking in                                      in
  Separately Billable Drug                  Independent                                                    Hospital-Based                      Hospital-Based
                                                                                Dialysis
                                                Dialysis                       Facilities                         Dialysis                             Dialysis
                                               Facilities                                                        Facilities                           Facilities
  Epoetin alfa, per 1,000 units                                1           $1,457,712,457                                             2                    $44,438,489

  Paricalcitol, 1 g*                                          2              $243,791,813                                            3                     $9,182,565

  Iron sucrose, 1 mg                                           3              $125,469,448                                            4                     $5,185,761

  Doxercalciferol, 1 g                                        4                $56,453,718                                           5                     $3,438,602

  Sodium ferric gluconate, 12.5
                                                               5                $49,201,885                                           6                     $3,400,363
  mg

  Darbepoetin alfa, 1 g                                       6                $47,980,810                                           1                    $57,389,882
  Alteplase recomb, 1 mg                                       7                $16,286,265                                           7                     $3,307,690
  Levocarnitine, 1 g                                           8                 $3,561,991                                         11                       $328,083

  Vancomycin HCL, 500 mg                                       9                 $2,595,876                                         12                       $194,233
  Calcitriol, 0.1 g                                         10                  $1,931,801                                         10                       $414,817

  Iron dextran, 50 mg                                        15                     $474,834                                        13                       $129,437

    Total                                                                  $2,005,460,898                                                                 $127,409,922
 Source: OIG analysis of 2007 National Claims History File.
* µg = microgram, mg = milligram, g = gram.

                             Data Collection
                             Independent dialysis facilities. As of December 2008, 3 dialysis companies
                             (Davita, Fresenius, and Dialysis Clinic, Inc.) owned 3,181 (71 percent) of
                             the 4,461 independent dialysis facilities. 41 We sent a survey requesting
                             first-quarter 2009 acquisition cost information for the 11 drugs under
                             review to representatives of these 3 companies. We requested
                             information about the total amount paid by each company for each of
                             the 11 drugs, the amount of discounts and rebates received, the net
                             amount paid, the number of units purchased, and the average
                             acquisition cost per drug. We defined average acquisition cost as the
                             total amount paid (net of all rebates and discounts) divided by the total
                             number of units purchased. Between August 2009 and January 2010,
                             all three companies responded with the requested information. In their
                             responses, the 3 large dialysis companies indicated that they had



                               41 Dialysis Facility Compare database. Accessed at http://www.medicare.gov on
                             December 10, 2008.



   OEI-03-09-00280           E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S             9
I N T R O D         U C T           I O N


                     acquired or opened an additional 137 independent dialysis facilities in
                     the first quarter of 2009 (for a revised total of 3,318).

                     We also sent requests for information for identical first-quarter
                     2009 cost data to a random sample of 200 independent dialysis facilities
                     not affiliated with the 3 largest companies. 42 We asked each facility if it
                     was part of a chain. Between August and December 2009, we received
                     responses from 165 facilities (83 percent). However, 18 of the
                     responding independent facilities had actually been acquired by Davita
                     or Fresenius, meaning that they were owned by 1 of the 3 large dialysis
                     companies during the review period. Acquisition cost data for these 18
                     facilities were thus included as part of the larger companies’ responses.
                     Another two facilities provided incomplete data that could not be
                     included in the analysis. Therefore, we received complete data from 145
                     independent dialysis facilities not affiliated with the 3 largest
                     companies. Several of the responding facilities owned multiple dialysis
                     units and provided cost data for 20 additional facilities (for a total of 165
                     respondents not affiliated with the 3 large independent dialysis
                     companies). According to the responses provided, 106 of these facilities
                     were part of a chain and 59 were nonchains.

                     After we combined data from the 3,318 facilities owned or managed by
                     the 3 largest dialysis companies and the 165 responding unaffiliated
                     independent dialysis facilities, our results represent acquisition costs for
                     more than three-quarters of all independent dialysis facilities.

                     Hospital-based dialysis facilities. We selected all of the
                     276 hospital-based dialysis facilities that were listed in CMS’s Dialysis
                     Facility Compare database as of December 2008. In July 2009, we sent
                     surveys to these facilities requesting first-quarter 2009 acquisition cost
                     information for each of the 11 drugs under review. Between August and
                     December 2009, we received responses from 199 hospital-based dialysis
                     facilities (72 percent of all hospital-based dialysis facilities).

                     We were unable to use data from 57 respondents because of their
                     participation in the 340B program. 43 In addition, one hospital-based
                     facility was excluded from our analysis because it received Department


                        42 We randomly selected these facilities from Medicare’s Dialysis Facility Compare

                     database.
                        43 The 340B program requires drug manufacturers to provide drugs to eligible health
                     care centers at or below statutorily defined ceiling prices. Public Health Services Act, §
                     340B.



  OEI-03-09-00280    E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   10
I N T R O D         U C T           I O N


                     of Veterans Affairs pricing, which is heavily discounted compared to the
                     marketplace. Another five facilities were excluded from our analysis for
                     providing incomplete data. Two hospital-based facilities had been
                     acquired by one of the major dialysis companies (and therefore no longer
                     met the definition of “hospital based”). One of the responding hospitals
                     provided data on 3 additional hospitals, resulting in 134 respondents
                     with valid data for 137 hospital-based dialysis facilities.

                     CMS data. We obtained the ASP-based Medicare payment amounts
                     for the 11 selected separately billable ESRD drugs in the first quarter
                     of 2009 from CMS’s Web site.
                     PPI data. For the purpose of comparing changes in the PPI for
                     Prescription Drugs to changes in facility acquisition costs, we obtained
                     from BLS’s Web site annual and monthly values of the PPI for
                     Prescription Drugs for the period beginning in 2003 (i.e., the period
                     covered by OIG’s first mandated ESRD pricing study) and ending in
                     March 2009.
                     Data Analysis
                     Comparing acquisition costs to Medicare payment amounts. For both
                     facility types (i.e., independent and hospital-based), we calculated
                     volume-weighted average acquisition costs (hereinafter referred to as
                     average acquisition costs) by totaling the amount paid net of any
                     discounts and rebates for each drug and dividing it by the total units
                     purchased among all facilities for each drug. In calculating these
                     figures, we identified any outliers among the costs reported by facilities
                     and removed them from our analysis. We defined an outlier as an
                     average acquisition cost reported by a facility that was not within three
                     standard deviations of the mean. 44 We calculated the percentage
                     difference between the average acquisition cost and CMS’s first-quarter
                     2009 ASP-based Medicare payment amount per drug for both facility
                     types.

                     To calculate the aggregate difference between the average acquisition
                     costs and CMS’s first-quarter 2009 ASP-based Medicare payment
                     amounts among all 11 drugs, we:




                        44 Among independent dialysis facilities, an average of 1.9 responses per drug were

                     considered outliers and removed. Among hospital-based dialysis facilities, this number was
                     1.5. No more than four outliers were removed for any single drug in both types of facilities.



  OEI-03-09-00280    E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   11
I N T R O D         U C T           I O N


                          calculated the total amount paid for the 11 drugs among the
                           facilities by summing the data reported by all respondents;

                          multiplied the total units purchased for each drug, as reported by
                           facilities, by its Medicare payment amount to calculate the total
                           amount that facilities would have paid for all these drugs if their
                           acquisition costs equaled Medicare payment amounts; and

                          calculated the percentage difference between the total amount paid
                           for the 11 drugs, as reported by facilities, and the total that would
                           have been paid had the acquisition cost been equal to Medicare
                           payment amounts.
                     Independent chain versus nonchain facilities. To determine whether
                     independent dialysis chain facilities had average acquisition costs that
                     differed from those of nonchain facilities, we compared cost data from
                     the 3,424 responding facilities affiliated with chains to cost data from
                     the 59 responding nonchain facilities by repeating the analysis
                     described in the section above. In addition, we compared chain and
                     nonchain acquisition costs to CMS’s first-quarter 2009 ASP-based
                     Medicare payment amounts. We also calculated the aggregate
                     difference between chain and nonchain acquisition costs and CMS’s
                     first-quarter 2009 ASP-based payment amounts.

                     Change in PPI for Prescription Drugs versus change in acquisition costs.
                     Using cost data from previous OIG reports, we compared average
                     acquisition costs from the first quarter of 2009 to average acquisition
                     costs in 2003 (for 10 of the 11 drugs), 2005 (for darbepoetin alfa only),
                     and the third quarter of 2006. 45, 46 To determine whether actual drug
                     costs have increased, decreased, or remained the same, we determined

                       45 OIG reports entitled Medicare Reimbursement for Existing End-Stage Renal Disease
                     Drugs (OEI-03-04-00120), May 2004, and Medicare Reimbursement for New End Stage
                     Renal Disease Drugs (OEI-03-06-00200), March 2006, contained acquisition cost data for
                     the entire years (2003 and 2005, respectively). Medicare Reimbursement for End Stage
                     Renal Disease Drugs: Third Quarter 2006 (OEI-03-06-00590), June 2007, contained
                     acquisition cost data only for the third quarter of 2006. In addition, the March 2006 report
                     focused only on a single drug (darbepoetin alfa), which did not yet have its own Medicare
                     billing code at the time of our initial report.
                         46 In the May 2004 OIG report entitled
                                                             Medicare Reimbursement for Existing End-Stage
                     Renal Disease Drugs (OEI-03-04-00120), we separately calculated average acquisition costs
                     for the four largest independent dialysis companies and smaller independent dialysis
                     facilities (we did not calculate a combined figure). For the purpose of this report, we
                     estimated a combined average acquisition cost for independent facilities in 2003 using a
                     weighting method that approximates how costs for independent facilities were calculated in
                     later reports.



  OEI-03-09-00280    E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   12
I N T R O D         U C T           I O N


                     the percentage change in price between each period for each drug.
                     Because two of the earlier OIG reports did not collect acquisition cost
                     data from hospital-based dialysis facilities, we compared acquisition
                     cost changes over time only for independent dialysis facilities.

                     To determine whether the PPI for Prescription Drugs has been an
                     accurate predictor of changes in prices for separately billable ESRD
                     drugs, we compared the changes in per-drug acquisition costs among
                     independent dialysis facilities for separately billable drugs to changes in
                     the PPI from 2003 to the first quarter of 2009. Using the same data, we
                     also calculated how much epoetin alfa (a drug whose expenditures will
                     account for nearly 70 percent of the pharmaceutical portion of the ESRD
                     market basket under the new bundled rate) would have cost in the first
                     quarter of 2009 if its average acquisition cost from 2003 had changed at
                     the same rate as the PPI for Prescription Drugs. To estimate the
                     amount that total Medicare expenditures would have differed in the
                     first quarter of 2009 had payment for epoetin alfa been based on the PPI
                     for Prescription Drugs since 2003 rather than ASP, we (1) calculated the
                     percentage difference between the drug’s first-quarter 2009 Medicare
                     payment amount and the PPI-based cost figure from the same quarter
                     and (2) multiplied this amount by one-quarter of Medicare expenditures
                     for the drug in independent dialysis facilities in 2008. 47
                     Limitations
                     We did not verify the drug cost information submitted by the dialysis
                     facilities. The acquisition cost data provided in this report represent all
                     purchases for the drugs under review made by more than three-quarters
                     of all dialysis facilities during the first quarter of 2009; we did not
                     project these figures to facilities not included in our sample.
                     Standards
                     This study was conducted in accordance with the Quality Standards for
                     Inspections approved by the Council of the Inspectors General on
                     Integrity and Efficiency.




                       47 This calculation assumes that Medicare expenditures in the first quarter of 2009 were
                     equal to one-quarter of the annual expenditures in 2008.



  OEI-03-09-00280    E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   13
              F I N D I N G S

                                                                            In the first quarter of 2009,
         In the aggregate, drug acquisition costs at                        aggregate acquisition costs for
     independent dialysis facilities were 10 percent                        ESRD drugs among responding
                  below Medicare payment amounts                            independent dialysis facilities
                                                                            averaged 10 percent below
                                    Medicare payment amounts. For these facilities, average acquisition
                                    costs for all 11 of the drugs under review were between 2 percent and
                                    27 percent below Medicare payment amounts.
                                    The average acquisition cost for epoetin alfa (a product that accounted
                                    for nearly 70 percent of Medicare drug expenditures in independent
                                    facilities in 2008) was 9 percent less than the Medicare payment
                                    amount. In total, 99 percent of responding independent dialysis
                                    facilities could purchase epoetin alfa at prices that were below the
                                    Medicare payment amount in that quarter. Table 2 illustrates the
                                    percentage difference between Medicare payment amounts and average
                                    acquisition costs reported by independent dialysis facilities for the first
                                    quarter of 2009.
Table 2: Medicare Payment Amounts and Average Acquisition Costs for Responding
Independent Dialysis Facilities
                                                         First-Quarter                  First-Quarter                                                   Percentage of Medicare
                                                                 2009                           2009                                                              Payments to
                                                                                                                               Percentage
 Separately Billable Drug                                    Medicare                        Average                                                     Independent Facilities
                                                                                                                                Difference
                                                             Payment                     Acquisition                                                     for Separately Billable
                                                               Amount                           Cost                                                             Drugs in 2008
 Alteplase recombinant, 1 mg                                     $34.10                           $33.40                                -2.1%                              0.8%
 Iron dextran, 50 mg                                              $11.78                          $11.21                                -4.8%                             < 0.1%
 Sodium ferric gluconate, 12.5 mg                                  $4.74                              $4.40                             -7.2%                              2.5%
 Epoetin alfa, per 1,000 units                                     $9.20                              $8.37                             -9.0%                             69.5%

 Paricalcitol, 1 g                                                $3.66                              $3.29                           -10.1%                              14.2%

 Doxercalciferol, 1 g                                             $3.31                              $2.94                           -11.2%                               2.5%

 Vancomycin HCl, 500 mg                                            $3.08                              $2.70                           -12.3%                               0.1%
 Iron sucrose, 1 mg                                                $0.37                              $0.31                           -16.2%                               6.6%

 Darbepoetin alfa, 1 g                                            $3.06                              $2.54                           -17.0%                               2.2%

 Levocarnitine, 1 g                                                $6.71                              $5.35                           -20.3%                               0.1%

 Calcitriol, 0.1 g                                                $0.45                              $0.33                           -26.7%                               0.1%

     Aggregate                                                                                                                          -9.7%                             98.6%

Source: OIG analysis of first-quarter 2009 average acquisition costs among responding independent facilities, November 2009.




           OEI-03-09-00280          E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S       14
     F    I N D I N G                 S


                                    Overall, responding independent chain dialysis facilities paid less for
                                    the drugs under review than nonchain facilities
                                    In the aggregate, overall acquisition costs among responding
                                    independent chain facilities averaged 10 percent below Medicare
                                    payment amounts. Costs among responding independent nonchain
                                    facilities averaged 3 percent below Medicare payment amounts.

                                    On average, responding independent chain facilities could purchase
                                    10 of the 11 drugs under review for less than responding independent
                                    nonchain facilities in the first quarter of 2009. For these 10 drugs,
                                    average acquisition costs among chains ranged from 3 percent to
                                    26 percent less than average acquisition costs among nonchains. For
                                    the 11th drug, chains actually paid 2 percent more, on average.
                                    For responding independent chain facilities, average acquisition costs
                                    were less than the Medicare payment amounts for all 11 drugs.
                                    However, among responding independent nonchain facilities, there were
                                    three drugs for which the average acquisition costs exceeded the
                                    Medicare payment amounts (by 1 percent to 7 percent) in the first
                                    quarter of 2009. These three drugs accounted for 22 percent of total
                                    Medicare payments to independent facilities for separately billable
                                    ESRD drugs in 2008. The average acquisition costs among responding
                                    chain and nonchain facilities for all 11 drugs are presented in Table 3.
Table 3: Medicare Payment Amounts and Average Acquisition Costs for Responding
Chain and Nonchain Independent Dialysis Facilities
                                                             First-Quarter 2009                        First-Quarter 2009                                 First-Quarter 2009
 Separately Billable Drug                                    Medicare Payment                    Average Acquisition Cost                           Average Acquisition Cost
                                                                       Amount                                  for Chains                                     for Nonchains
 Alteplase recombinant, 1 mg*                                                 $34.10                                             $33.38                                $34.50
 Iron dextran, 50 mg                                                          $11.78                                             $11.20                                $11.75
 Sodium ferric gluconate, 12.5 mg                                               $4.74                                              $4.39                                $4.62
 Epoetin alfa, per 1,000 units                                                  $9.20                                              $8.36                                $9.15

 Paricalcitol, 1 g*                                                            $3.66                                              $3.28                                $3.90

 Doxercalciferol, 1 g                                                          $3.31                                              $2.94                                $3.30

 Vancomycin HCl, 500 mg                                                         $3.08                                              $2.70                                $2.91
 Iron sucrose, 1 mg                                                             $0.37                                              $0.31                                $0.38

 Darbepoetin alfa, 1 g                                                         $3.06                                              $2.56                                $2.51

 Levocarnitine, 1 g                                                             $6.71                                              $5.34                                $5.81

 Calcitriol, 0.1 g                                                             $0.45                                              $0.32                                $0.43
Source: OIG analysis of first-quarter 2009 average acquisition costs among responding independent facilities, November 2009.




           OEI-03-09-00280          E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S    15
       F    I N D I N G                 S



         In the aggregate, drug acquisition costs at                          In the first quarter of 2009,
                                                                              aggregate acquisition costs for
     hospital-based dialysis facilities were 7 percent
                                                                              ESRD drugs among responding
                  below Medicare payment amounts
                                                                              hospital-based dialysis facilities
                                                                              averaged 7 percent below
                                       Medicare payment amounts. For these facilities, average acquisition
                                       costs for 5 of the 11 ESRD drugs under review were between 4 percent
                                       and 33 percent below Medicare payment amounts. Average acquisition
                                       costs for epoetin alfa and darbepoetin alfa (two products that accounted
                                       for 73 percent of Medicare drug spending in hospital-based facilities in
                                       2008) were 4 percent and 15 percent below the Medicare payment
                                       amounts, respectively.
                                       For 6 of the 11 drugs, average acquisition costs among responding
                                       hospital-based facilities ranged from 0.4 percent to 12 percent above the
                                       Medicare payment amount (for 3 of these drugs, the difference was
                                       1 percent or less). These six drugs accounted for 23 percent of total
                                       Medicare payments to hospital-based facilities in 2008. Table 4
                                       illustrates the percentage difference between Medicare payment
                                       amounts and average acquisition costs reported by hospital-based
                                       dialysis facilities in the first quarter of 2009.
 Table 4: Medicare Payment Amounts and Average Acquisition Costs for Responding
 Hospital-Based Dialysis Facilities
                                                        First-Quarter                  First-Quarter                                                  Percentage of Medicare
                                                                2009                           2009                                                     Payments to Hospital-
                                                                                                                             Percentage
 Separately Billable Drug                                   Medicare                        Average                                                       Based Facilities for
                                                                                                                              Difference
                                                            Payment                     Acquisition                                                  Separately Billable Drugs
                                                              Amount                           Cost                                                                     in 2008
 Paricalcitol, 1 g                                                 $3.66                           $4.10                             12.0%                                9.7%

 Iron sucrose, 1 mg                                                 $0.37                           $0.39                               5.4%                               4.4%

 Doxercalciferol, 1 g                                              $3.31                           $3.39                               2.4%                               3.0%

 Levocarnitine, 1 g                                                 $6.71                           $6.78                               1.0%                               0.2%
 Sodium ferric gluconate, 12.5 mg                                   $4.74                           $4.78                               0.8%                               3.1%
 Alteplase recombinant, 1 mg                                      $34.10                           $34.23                               0.4%                               3.0%
 Epoetin alfa, per 1,000 units                                      $9.20                           $8.82                              -4.1%                            29.6%
 Iron dextran, 50 mg                                              $11.78                           $11.22                              -4.8%                               0.4%
 Vancomycin HCl, 500 mg                                             $3.08                           $2.71                            -12.0%                                0.2%

 Darbepoetin alfa, 1 g                                             $3.06                           $2.59                            -15.4%                             43.2%

 Calcitriol, 0.1 g                                                 $0.45                           $0.30                            -33.3%                                0.1%

     Aggregate                                                                                                                         -7.0%                            96.9%
Source: OIG analysis of first-quarter 2009 average acquisition costs among responding hospital-based dialysis facilities, November 2009.



             OEI-03-09-00280           E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S     16
     F    I N D I N G                   S



Over the past several years, average acquisition                            As Table 5 illustrates, 7 of the
  costs for 7 of the 11 drugs under review have                             11 separately billable ESRD drugs
                                                                            under review have actually seen a
     decreased among responding independent
                                                                            decrease in their average
                                dialysis facilities
                                                                            acquisition costs for responding
                                      independent dialysis facilities over the last several years. 48 Costs for
                                      two of the drugs were at least 50 percent less in the first quarter of 2009
                                      than in 2003. In contrast, only four drugs became more expensive for
                                      independent dialysis facilities during this time period. These four drugs
                                      accounted for only 3 percent of total Medicare payments to independent
                                      facilities for separately billable ESRD drugs in 2008.
Table 5: Changes in Average Acquisition Costs Among Independent Dialysis
Facilities From 2003 to the First Quarter of 2009

                                                                                        Third-Quarter 2006                    First-Quarter 2009                            Percentage
                                                             2003 Average                         Average                               Average                     Change From 2003
 Separately Billable Drug
                                                           Acquisition Cost               Acquisition Cost                     Acquisition Cost                      to First Quarter of
                                                                                                                                                                                   2009

 Doxercalciferol, 1 g                                                  $2.33                                  $2.16                                $2.94                         26.2%

 Alteplase recombinant, 1 mg                                           $28.90                                $32.48                               $33.40                          15.6%
 Iron dextran, 50 mg                                                   $10.01                                $11.29                               $11.21                          12.0%
 Vancomycin HCl, 500 mg                                                 $2.69                                  $2.46                                $2.70                          0.4%
 Sodium ferric gluconate, 12.5 mg                                       $4.43                                  $4.34                                $4.40                          -0.7%

 Darbepoetin alfa,* 1 g                                                $2.59                                  $2.82                                $2.54                          -1.9%

 Iron sucrose, 1 mg                                                     $0.32                                  $0.32                                $0.31                          -3.1%
 Epoetin alfa, per 1,000 units                                          $8.82                                  $8.56                                $8.37                          -5.1%

 Paricalcitol, 1 g                                                     $3.53                                  $3.40                                $3.29                          -6.8%

 Levocarnitine, 1 g                                                    $11.22                                  $7.00                                $5.35                         -52.3%

 Calcitriol, 0.1 g                                                     $0.87                                  $0.37                                $0.33                         -62.1%
Source: OEI-03-04-00120; OEI-03-06-00200; OEI-03-06-00590; OIG analysis of first-quarter 2009 average acquisition costs among responding
independent facilities, November 2009.
* Darbepoetin alfa did not yet have its own Medicare billing code in 2003. Therefore, the price given in the 2003 column is for 2005, the first year it had
a Medicare billing code.




                                          48 Darbepoetin alfa did not yet have its own Medicare billing code in 2003. Therefore, all

                                      analyses of its acquisition cost changes used data starting in 2005, the first year it had a
                                      Medicare billing code.



           OEI-03-09-00280             E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S            17
F    I N D I N G        S


                                                                CMS plans to use the PPI for
     During a period when acquisition costs for
                                                                Prescription Drugs (a measure
    many ESRD drugs decreased, the index CMS                    that reflects price changes
    plans to use as the basis for future payment                associated with the average mix of
               changes increased by 39 percent                  all the prescription drugs sold in
                                                                pharmacies) as the basis for
                       annual adjustments to the prescription drug portion of the new bundled
                       rate. According to PPI data, prices for all prescription drugs were
                       39 percent higher in the first quarter of 2009 than in 2003. 49 However,
                       facility acquisition costs for the drugs that account for the majority of
                       Medicare expenditures in independent dialysis facilities actually
                       decreased during this same period.
                       For example, the average acquisition cost among responding
                       independent dialysis facilities for 1,000 units of epoetin alfa fell from
                       $8.82 in 2003 to $8.37 in the first quarter of 2009. In other words, on
                       average, independent facilities paid 5 percent less for the highest
                       expenditure ESRD drug in early 2009 than they did several years
                       earlier. If the PPI for Prescription Drugs had been an accurate
                       predictor for changes in the acquisition cost of epoetin alfa since 2003,
                       dialysis facilities would have paid $12.22 for 1,000 units of the drug in
                       the first quarter of 2009. 50 This amount would be 46 percent higher
                       than epoetin alfa’s average acquisition cost among responding
                       independent dialysis facilities (and 33 percent higher than the
                       ASP-based payment amount). Had the Medicare payment amount for
                       epoetin alfa since 2003 been based on changes in the PPI for
                       Prescription Drugs, total program payments to all independent dialysis
                       facilities for the drug in the first quarter of 2009 alone would have been
                       $113 million higher than actual payments under the current ASP-based
                       system. As Graph 1 illustrates, if past trends continue, this gap would
                       continue to expand substantially in future years.




                         49 BLS, Databases, Tables & Calculators by Subject. Accessed at http://www.bls.gov/data

                       on November 25, 2009.
                         50 Under the Act, as amended by section 3401(h) of the PPACA, ESRD bundled payment
                       amounts must be updated by the increase in the ESRDB price index minus a productivity
                       adjustment. The PPI for Prescription Drugs is one part of the ESRDB index. We did not
                       address changes in the productivity adjustment when performing our calculations using the
                       PPI for Prescription Drugs. Had we done so, the differences in our figures may have been
                       reduced, but the general trends would have likely remained the same.



     OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   18
    F          I N D I N G         S


Graph 1: Changes in Epoetin Alfa Average Acquisition Cost Versus Changes in the
PPI for Prescription Drugs Since 2003

               $13.00
                                                                                                                                  $12.22
               $12.00

                                                                                                                                                               Epogen (acq)
               $11.00
 Amount Paid




                                                            $10.51
               $10.00                                                                                                                                          Epogen (PPI)
                                                                $9.48                                                              $9.20
                        $8.82
                $9.00
                                                                              $8.56                                                  $8.37                     Epogen (ASP
                $8.00                                                                                                                                          plus 6 percent)


                $7.00
                    2003                                               2006                                                                2009
                                                                       Year

Source: OEI-03-04-00120; OEI-03-06-00590; OIG analysis of first-quarter 2009 average acquisition costs among responding independent facilities;
OIG analysis of BLS data, November 2009.




                OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S           19
   R E C O M M E N D A T I O N



                  CMS currently pays all dialysis facilities at 106 percent of ASPs for
                  most separately billable ESRD drugs. Under the current system, we
                  found that aggregate acquisition costs for ESRD drugs at both
                  independent and hospital-based dialysis facilities were below Medicare
                  payment amounts. In addition, when we compared acquisition costs
                  among responding independent dialysis facilities to costs from prior OIG
                  reports, we found that 7 out of the 11 separately billable ESRD drugs
                  under review have actually seen a decrease in their average acquisition
                  costs over the last several years. The cost of epoetin alfa, a drug
                  responsible for more than $1.4 billion in annual Medicare spending in
                  dialysis facilities, fell by 5 percent. During this same period, the PPI for
                  Prescription Drugs increased by 39 percent.

                  If the new bundled system is implemented as planned and acquisition
                  costs for the majority of separately billable ESRD drugs decrease (as
                  they have in the past) while price indexes rise, the existing gap between
                  Medicare payment amounts and dialysis facility acquisition costs will
                  continue to grow each year. As a result, payments under the new
                  bundled system would not accurately reflect facility acquisition costs,
                  potentially costing the program additional hundreds of millions of
                  dollars per year. Therefore, we recommend that CMS:
                  Develop a more accurate method for estimating changes in the
                  prices of ESRD drugs
                  CMS decided to use the PPI for Prescription Drugs (a measure that
                  reflects price changes associated with the average mix of all the
                  prescription drugs sold in pharmacies) as the proxy for drug price
                  increases under the assumption that “… the price changes associated
                  with the assortment of drugs administered in ESRD facilities should,
                  over time, be similar to the average prescription drug price changes
                  observed across the entire economy.” 51 However, average acquisition
                  costs for the majority of the drugs purchased by dialysis facilities have
                  actually decreased during the period under review. At the same time,
                  there has been a substantial increase in CMS’s chosen index. Therefore,
                  the agency should develop a new method for estimating changes that
                  more accurately reflects historical trends in the pricing of drugs that
                  make up the pharmaceutical category of the ESRDB price index.


                     51 75 Fed. Reg. 49030, 49160 (Aug. 12, 2010).




OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   20
R   E C O      M M E N D A T                       I O N



                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS did not concur with our recommendation. In its response to the
                      draft report, CMS stated that the downward trajectory of average
                      acquisition costs documented in OIG’s analysis was influenced largely
                      by changes in CMS’s payment mechanism for separately billable ESRD
                      drugs. Specifically, CMS believes that the decrease in the average
                      acquisition cost of epoetin alfa during the period under review was
                      caused by an above-market Medicare payment amount in the baseline
                      year of OIG’s analysis (2003) and the subsequent decrease in the
                      payment amount for epoetin alfa after the ASP-based system was
                      implemented. CMS states that, as a result, OIG’s figures are not
                      suitable for inferring future price trends as the market for epoetin alfa
                      becomes more competitive.

                      CMS’s view is that it is more appropriate to look at recent quarterly
                      price changes—changes that CMS states have not been distorted by
                      changes in payment policy—that show an increase in the cost of epoetin
                      alfa since the end of 2008. CMS goes on to state its belief that
                      underlying market forces are driving these recent increases and that
                      future costs should resemble changes in general pharmaceutical prices
                      rather than past trends. Therefore, CMS expects that future ESRD
                      drug price growth will more closely reflect market-based price drivers,
                      such as those measured by the PPI for Prescription Drugs. CMS
                      expects that, beginning in 2011, the PPI for Prescription Drugs will
                      grow 3.4 percent annually for the first 5 years of the bundled rate
                      payment system and states that this trend is consistent with the
                      recently observed trend in the cost of epoetin alfa.

                      OIG fully appreciates the difficulty that CMS faces in implementing the
                      new bundled rate payment system, especially in terms of estimating
                      future costs for all items and services related to ESRD care. OIG also
                      realizes that the historical average acquisition cost data presented in
                      this report may not necessarily be predictive of future trends in the
                      costs of separately billable drugs. Nevertheless, based on our findings,
                      we remain concerned that Medicare could end up paying too much for
                      these drugs once the bundled rate is implemented, potentially costing
                      the program and its beneficiaries hundreds of millions of dollars a year.
                      We are especially concerned that CMS’s chosen index, the PPI for
                      Prescription Drugs, has consistently averaged annual growth above
                      4 percent (and over 7 percent in 2008 and 2009). During this same


    OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   21
R   E C O      M M E N D A T                       I O N


                      period, the ASP for epoetin alfa has seen a more modest increase and,
                      according to CMS’s response, never matched the growth of the PPI for
                      Prescription Drugs. Given the risks to the program of overpaying for
                      prescription drugs, OIG intends to work with CMS to carefully monitor
                      the cost of epoetin alfa and other ESRD drugs in the future.




    OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   22
      A P P E N D I X                                  ~          A

Medicare Expenditures in 2008 for Drugs Under Review

                                      Payment Ranking                  Total Payment in                  Payment Ranking                      Total Payment in
 Separately Billable Drug               in Independent                      Independent                  in Hospital-Based                      Hospital-Based
                                      Dialysis Facilities              Dialysis Facilities               Dialysis Facilities                  Dialysis Facilities

 Epoetin alfa, per 1,000
                                                              1           $ 1,382,667,793                                            2                    $34,287,338
 units

 Paricalcitol, 1 g*                                          2              $282,709,514                                            3                    $11,244,877

 Iron sucrose, 1 mg                                           3              $130,808,384                                            4                     $5,055,486

 Doxercalciferol, 1 g                                        4                $50,504,917                                           7                     $3,495,384

 Sodium ferric gluconate,
                                                              5                $49,256,017                                           5                     $3,625,818
 12.5 mg

 Darbepoetin alfa, 1 g                                       6                $43,185,051                                           1                    $50,052,297
 Alteplase recomb, 1 mg                                       7                $16,575,330                                           6                     $3,531,937
 Levocarnitine, 1 g                                           8                 $2,543,581                                         12                       $211,776

 Vancomycin HCL, 500 mg                                       9                 $1,714,940                                         11                       $234,703
 Calcitriol, 0.1 mcg                                        11                  $1,025,188                                         13                       $145,580

 Iron dextran, 50 mg                                        16                     $316,878                                          8                      $427,609

     Total                                                                $1,961,307,593                                                                 $112,312,805
Source: Office of Inspector General analysis of 2008 National Claims History File, 95-percent complete.


* µg = microgram, mg = milligram, g = gram.




    OEI-03-09-00280         E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S            23
   A P PEN D                         x                 B


   Agency Comments




                      DEPARlMENTOF HEALTH & HUMAN SERVICES                                      Centers tor Medicare & Medicaid Services


                                                                                                Administrator
                                                                                                Wsshlngton, DC 20201




                   DATE:           'JUN 1 0 2010
                   TO: 	          Daniel R, Levinson
                                  Inspector GeqeqU

                   FROM: 	        M~ TAVenner
                                                    /S/
                                  Acting Administrator and Chief Operating Officer

                   SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "End Stage Renal Disease
                              Drugs: Facility Acquisitions Costs and Future Medicare Payment Concerns"
                                  (OE1~03·09·00280)



                   Thank you for the opportunity to comment on the OlG Report: "End Stage Renal Disease Drugs:
                   Facility Acquisition Costs and Future Medicare Payment Concerns". The'Centers for Medicare
                   & Medicaid Services (CMS) recognizes the critical nature of paying appropriately for services
                   for its beneficiaries and is committed to ensuring that payment updates for providers ofEnd
                   Stage Renal Disease (ESRD) treatments are calculated fairly and appropriately.

                   Beginning in 2011, CMS will implement the ESRD Prospective Payment System. At that time,
                   ESRD providers will begin receiving a "bundled" payment for providing services to Medicare
                   beneficiaries, That bundled payment is intended to pay for renal dialysis services inclusive of
                   several covered pharmaceuticals.

                    When Medicare began covering ESRD patients in 1973, providers were permitted to bill
                    separately for prescription drugs, including Erythropoietin (Epo) (which represents about two­
                    thirds of the industry's total drug costs). At that time, the payment rate for Epo was set
                    according to statute ilt $10 per 1,000 units (see section 1881(bXIIXB) of the Social Security
                   . Act). For other commonly used drugs ofESRD patients, payment rates were set to Average
                    Wholesale Price minus 5 percent.

                   Beginning in 2006, the agency   was  required to pay for drugs using the average sales price of the
                   respective drugs, plus six percent (ASP+6). The analyses that the OIG has conducted carefully
                   documents the downward trajectory of price growth in average acquisition cost (AAC) over a
                   short historical period that has been largely influenced by the change in CMS's payment
                   mechanism, We do, however, have some reservations regarding the OIG's recommendation for
                   projecting price changes for drugs in ESRD facilities. The rationale for those concerns is
                   articulated below.




oE1·03·09·00 280        ESRD DRUGS:     FACILITY ACQUISITION COSTS AND FUTURE MEDICARE PAYMENT CONCERNS                           24
A   P   P E N D       I X          ~          B




    OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   25
A   P   P E N D       I X          ~          B




    OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   26
A   P   P E N D       I X          ~          B




    OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   27
A     P
        A PC EK N N D OI W L E D G M E N T S
                         X ~ A



                       This report was prepared under the direction of Robert A. Vito, Regional
                       Inspector General for Evaluation and Inspections in the Philadelphia
                       regional office, and David E. Tawes, Director, Prescription Drug Pricing
                       Unit.

                       Roman Strakovsky served as the lead analyst for this study. Other
                       principal Office of Evaluation and Inspections staff from the
                       Philadelphia regional office who contributed to the report include
                       Stephanie Yeager; other staff who contributed include Natasha
                       Franklin.




     OEI-03-09-00280   E S RD D RU G S : FAC I L IT Y A CQ U I SI TIO N CO S T S   AND   F U T U R E M E D I C A R E P AY M E N T C O N C E R N S   28
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
